Survey and Internal Control Assessment Review of the
Raytheon Polar Services Company




                                       March 15, 2006
                                        OIG-06-2-003




                             National Science Foundation
                              Office of Inspector General
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                    Executive Summary

This report provides the results of our review of internal controls over the five major
financial business systems at Raytheon Polar Services Company’s (RPSC) that are
specific to the National Science Foundation’s (NSF) United States Antarctic Program
(USAP). These systems support the financial activities of RPSC’s Science, Operations,
and Support Contract No. PRSS-0000373 with NSF, which is a cost reimbursement type
contract valued at $1.1 billion over ten years. The objective of our review was to
determine the adequacy of internal controls within these five financial business systems
at RPSC to ensure that costs billed to NSF for the USAP contract are allowable,
reasonable, and allocable under the Federal requirements and NSF contract terms.

The contract between RPSC and NSF is governed by the Federal Acquisition Regulation
(FAR). In particular, FAR Part 9, Section 104 requires RPSC to “Have the necessary
organization, experience, accounting and operational controls, and technical skills, or
the ability to obtain them (including, as appropriate, such elements as production control
procedures, property control systems, quality assurance measures, and safety programs
applicable to materials to be produced or services to be performed by the prospective
contractor and subcontractors).”

This report complements the audit findings reported by the Defense Contract Audit
Agency (DCAA) in its audit of costs RPSC claimed to NSF for payment on the USAP
contract from 2000 through 20021. In NSF OIG Report No. 05-1-005, DCAA identified
over xxxxxxxxxx that RPSC claimed for payment from NSF that are not allowable under
the Federal and NSF terms of the contract, or are not supported by proper accounting
documentation. Recommendations were made in that report to correct misclassifications
of expenses in RPSC’s corporate accounting system, which is maintained by RPSC’s
Headquarter Office, Raytheon Technical Services Company (RTSC) and to improve
internal controls in that system to prevent errors from occurring on future bills provided
to NSF on the USAP contract.

However, we found that there are additional financial business systems in place at the
RPSC regional office that affect the amounts billed to NSF for the USAP contract. A
review of the five major financial business systems at RPSC was not included in DCAA’s
audit which was confined to a review of the cost information within RPSC’s corporate
accounting system. Therefore, we performed audit procedures to obtain an understanding
of the internal controls over RPSC’s five major financial business systems that support
NSF’s USAP contract activities. These five systems are the Polar Operations Financial
Management System (POFMS), Primavera Project Management Software System
(Primavera), Subcontract Management System, PERSCON Personnel Tracking System,
and MAPCON Material and Maintenance Scheduling System. A robust internal control
structure over each of these systems, in addition to RPSC’s accounting system, is

1
 Audit of Raytheon Polar Services Company’s Costs Claimed For Fiscal Years 2000 to 2002, OIG Report
No. 05-1-005, issued March 31, 2005.


                                                 2
necessary for RPSC to comply with the FAR requirements and reduce the risk that
invoices and cost data submitted to NSF by RPSC may include unallowable costs.

We determined that the internal controls related to RPSC’s use of POFMS and Primavera
are not adequate to reduce the risk of material misstatements to invoices and cost data
submitted to NSF for the USAP contract. We found that RPSC’s USAP contract costs,
recorded in POFMS and Primavera, do not reconcile to contract costs recorded in RPSC’s
accounting system, resulting in incorrect reporting to NSF of costs incurred to perform
the USAP contract. In particular, we determined that $206,000 of the $33 million that
DCAA identified as erroneous charges to the USAP contract claimed from 2000 to 2002,
are because RPSC misclassified xxxxxxxxxxx of subcontract costs as other direct costs in
its accounting system. Misclassifying subcontract costs as other direct costs in RPSC’s
accounting system allowed RPSC to incorrectly apply an additional xxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

An additional internal control deficiency found in both POFMs and Primavera concerns
costs incurred by “other organizations” and recorded in NSF’s accounting records that are
not reconciled to costs reported in POFMS and Primavera to ensure that the systems are
in agreement for the current period and cumulatively.

Additionally, RPSC needs to improve its Subcontract Management System to
prospectively identify subcontractors that may require stricter oversight and controls to
prevent NSF contract funds from being stolen or misused. Finally, we determined that
the internal controls for the PERSCON Personnel Tracking System and the MAPCON
Material and Maintenance Scheduling System were generally adequate to reduce the risk
of material misstatements to invoices and cost data submitted to NSF for the USAP
contract.

We recommend that the Director of the Division of Acquisition and Cooperative Support
ensure that RPSC properly records subcontract costs as such in the RPSC accounting
system; reconciles the costs recorded in the RPSC accounting system with the costs
recorded in POFMS and Primavera; and reconciles the cost data maintained by NSF for
USAP activities provided by other organizations with the costs recorded in POFMS and
Primavera systems. This recommendation, coupled with the corrective actions to the
RPSC accounting system recommended in the DCAA incurred cost audit, will allow
USAP costs to be reported and reconciled correctly in RPSC’s accounting system,
POFMS, Primavera, and NSF’s accounting system.

We also recommend that NSF ensure that RPSC perform and document an assessment of
the risk that RPSC subcontractors can accurately record and bill the costs of subcontract
performance in accordance with the subcontract terms and conditions; and that
subcontract voucher audits be performed on the subcontractor vouchers from Agencia
Universales S.A. (AGUNSA) to determine whether costs billed are allowable and to
verify that the corrective actions undertaken by AGUNSA are in operation and
effectively preventing future embezzlements.



                                           3
NSF provided a written response to our recommendations dated February 9, 2006, that
agreed to ensure that RPSC properly record subcontract costs as such in RPSC’s
accounting system; ensure that RPSC reconcile the costs recorded in RPSC’s accounting
system with the costs recorded in POFMS and Primavera; and ensure that RPSC increase
its review of AGUNSA’s vouchers. However, NSF disagreed with our recommendation
to ensure that RPSC reconciles the cost data maintained by NSF for USAP activities
provided by other organizations with the costs recorded in POFMS and Primavera
systems. Because this reconciliation is essential to ensuring that RPSC accurately and
completely reflects the full costs of operating the USAP so that RPSC and NSF managers
can make operational and budgetary decisions based on accurate and complete cost
information, we continue to reaffirm this recommendation. Also, while NSF agreed with
our recommendation concerning RPSC assessing the risk that its subcontractors can
accurately record and bill costs for cost-type subcontracts, it disagreed with the need to
assess risk for fixed-type subcontracts.




                                            4
                                                Table of Contents



EXECUTIVE SUMMARY ................................................................................................ 2

TABLE OF CONTENTS.................................................................................................... 5

ACRONYMS...................................................................................................................... 5

BACKGROUND ................................................................................................................ 7

SCOPE, OBJECTIVES AND METHODOLOGY............................................................. 8

RESULTS OF AUDIT........................................................................................................ 9

EXIT CONFERENCE ...................................................................................................... 14

APPENDIX A - ADDITIONAL SURVEY AND INTERNAL CONTROL
CONCLUSIONS............................................................................................................... 15

APPENDIX B: RESPONSE FROM NSF’S DIVISION OF ACQUISITION
AND COOPERATIVE SUPPORT (FORMERLY DIVISION OF CONTRACTS
AND COMPLEX AGREEMENTS)……………………………………………………..16

ACRONYMS

CAS                             Cost Accounting Standards
CASB                            Cost Accounting Standards Board
CFA                             Cognizant Federal Agency
CFR                             Code Federal Regulations
DCAA                            Defense Contract Audit Agency
DCMA                            Defense Contract Management Agency
FAR                             Federal Acquisition Regulation
FY                              Fiscal Year
GAO                             Government Accountability Office
ODC                             Other Direct Costs
OFPP                            Office of Federal Procurement Policy
OMB                             Office of Management and Budget
OPP                             Office of Polar Programs
RPSC                            Raytheon Polar Services Company
RTSC                            Raytheon Technical Services Company
SAS                             Statement Auditing Standards


                                                               5
WBS   Work Breakdown Structure




                        6
                                    Background

Raytheon Polar Services Company (RPSC) is the National Science Foundation’s United
States Antarctic Program Science, Operations, and Support contractor under NSF
Contract No. PRSS-0000373, which is a cost reimbursement type contract, valued at $1.1
billion over ten years. We conducted a review of internal controls over five major
financial business systems at RPSC because these systems were used in conjunction with
the RPSC accounting system maintained by RPSC’s corporate headquarters, Raytheon
Technical Services Company (RTSC), to charge NSF for services performed under
RPSC’s contract with NSF.

The United States Antarctic Program (USAP) has, since 1971 when NSF assumed full
responsibility for USAP, provided a permanent presence and overseen U.S. scientific
interests in Antarctica. Today, NSF’s Office of Polar Programs (OPP) administers the
USAP and oversees the operations performed under the USAP contract. The principal
goals of the USAP are to (1) understand the Antarctic region and its ecosystems, (2)
understand the effects of the region on global processes such as climate, as well as
responses to those effects, and (3) use the region as a platform to study the upper
atmosphere and space.

RPSC, located in Centennial, Colorado, is a business unit of RTSC, headquartered in
Reston, Virginia. RPSC is under contract to NSF to provide science, operations, and
maintenance support to sustain year-round research programs. RPSC is responsible for
providing these services at three locations in Antarctica - McMurdo Station, Amundsen-
Scott South Pole Station and Palmer Station as well as at Christchurch, New Zealand;
Punta Arenas, Chile; and Port Hueneme, California.

The functions RPSC provides to NSF include:

          •   research laboratory operations,
          •   remote field camp support and field safety training,
          •   research vessel operations,
          •   facilities engineering, maintenance, and construction,
          •   global communications operation and maintenance,
          •   medical clearances and clinic operations,
          •   acquisition of services, supplies, and equipment,
          •   transportation for cargo and passengers,
          •   food service, recreation, convenience store operations,
          •   airfield services, maintenance, equipment operations,
          •   power and water production and fuel operations,
          •   vehicle maintenance and waste management,
          •   human resource and financial management,
          •   data entry and inventory management,
          •   fire department and airfield crash rescue, and


                                           7
           •   housing management and janitorial services.


                       Scope, Objectives and Methodology

The objective of our review was to evaluate the adequacy of the internal controls in five
major RPSC business systems to ensure that the claimed USAP contract costs reported to
NSF are allowable, reasonable, and allocable, in accordance with Federal requirements
and NSF contract terms.

       The five major RPSC business systems that we reviewed were the:

       •   Polar Operations Financial Management System (POFMS);
       •   Primavera Project Management Software System (Primavera);
       •   Subcontract Management System;
       •   PERSCON Personnel Tracking System; and
       •   MAPCON Material and Maintenance Scheduling System.

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards (GAGAS). We used the criteria contained in the Federal Acquisition
Regulation, including Part 9, Section 104, “Contractor Qualifications;” guidance from the
Government Accountability Office (GAO) Publication GAO/AIMD-00-21.3.1,
“Standards for Internal Control in the Federal Government,” dated November, 1999;
Government Auditing Standard 6.13 “Internal Control;” and Statement on Auditing
Standard (SAS) no. 55, as amended by SAS no. 78, “Consideration of Internal Control in
a Financial Statement Audit.” In particular, FAR Part 9, Section 104 requires RPSC to
“Have the necessary organization, experience, accounting and operational controls, and
technical skills, or the ability to obtain them (including, as appropriate, such elements as
production control procedures, property control systems, quality assurance measures,
and safety programs applicable to materials to be produced or services to be performed
by the prospective contractor and subcontractors).” In addition, 48 CFR, Chapter 99
“Cost Accounting Standards Board Rules, Regulations, and Standards” requires RPSC
to accurately record and report costs of performing its contracts.

We performed audit procedures to obtain an understanding of the internal controls over
these five major financial business processes in order to assess the risk that invoices and
cost data submitted to NSF by RPSC may include unallowable costs.

We used internal control assessment procedures including inquiry, inspection,
recalculation, observation, and testing of internal controls. Our purpose was to determine
the effectiveness of the design of the controls, the adequacy of the controls, and the
compliance of the systems’ controls with the audit criteria. We reviewed RPSC’s
policies and procedures concerning the major RPSC business systems. We also
reconciled cost data recorded in the major RPSC business systems to cost data recorded
in the RPSC corporate accounting records and reviewed supporting source documents.



                                             8
                                       Results of Audit

We reviewed the internal controls in five RPSC business systems that are critically
important to NSF and its management of the NSF USAP contract. We determined that
the internal controls related to RPSC’s use of POFMS and Primavera are inadequate to
reduce the risk of material misstatements to invoices and cost data submitted to NSF for
the USAP contract. Additionally, RPSC needs to improve its Subcontract Management
System to prospectively identify subcontractors that may require stricter oversight and
controls to prevent NSF contract funds from being stolen or misused. Finally, we
determined that the internal controls for the PERSCON Personnel Tracking System and
the MAPCON Material and Maintenance Scheduling System were generally adequate to
reduce the risk of material misstatements to invoices and cost data submitted to NSF for
the USAP contract. Further discussion concerning these results can be found in
Appendix A.


Finding No. 1: USAP Cost Data in the Polar Operations Financial Management
System and Primavera Project Management Software System Does Not Reconcile to
Cost Data in the RPSC Accounting System

The POFMS is owned by NSF and is used to record all costs incurred by RPSC, as well
as costs incurred by all other organizations supporting USAP operations, including the
U.S. Army, Navy, and Air Force. Under the NSF contract, RPSC updates and maintains
the cost data in POFMS for NSF’s use in managing and monitoring the fiscal
performance of the USAP. Accordingly, POFMS should reflect both the costs RPSC has
incurred in support of USAP operations along with the costs incurred by other
organizations that are directly paid by NSF.2

We found that RPSC’s costs recorded in POFMS do not reconcile to the costs recorded in
RPSC’s accounting system, resulting in incorrect reporting to NSF of costs incurred to
perform the NSF USAP contract.3 Specifically, our audit disclosed that, for the three-
year period January 1, 2000 through December 31, 2002, approximately $10.3 million of
subcontract costs recorded in POFMS were incorrectly recorded as other direct costs (i.e.
travel, training, professional services, etc.) in RPSC’s accounting system. This occurred
because RPSC initially records subcontractor billed costs in its accounting system as
other direct costs and then, monthly, RPSC updates the POFMS, but not its own RPSC
accounting system, to correctly reflect these costs as subcontract costs. Therefore, while
POFMS correctly stated RPSC’s subcontractor costs in its quarterly voucher submissions
to NSF, RPSC’s annual final claim for payment to NSF incorrectly included the

2
  NSF provides RPSC an Email Memorandum identifying the cost data of the other organizations for entry
into POFMS.
3
  RPSC’s accounting system is Raytheon’s official accounting system approved by the Defense Contract
Management Agency and is maintained by RPSC’s Headquarters Office, Raytheon Technical Services
Company.


                                                  9
misclassified subcontract costs recorded in the RPSC accounting records. This
misclassification resulted in RPSC overcharging NSF approximately $206,000 of general
and administrative indirect costs in their annual final claim for payment. The contract
terms allow RPSC to charge general and administrative indirect costs for other direct
costs, but no general and administrative indirect costs may be charged for subcontract
costs. 4

In addition, we identified a similar problem with RPSC not reconciling cost information
in its Primavera System with cost data in its primary accounting system. The NSF
contract terms require RPSC to update and maintain the costs entered into xxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

Finally, costs recorded in both POFMS and Primavera that were incurred by “other
organizations” for USAP activities and projects are not reconciled to either the NSF or
the RPSC accounting systems where these costs are reported. NSF is responsible for
accounting for and directly paying organizations other than RPSC for USAP services and
activities. In order to ensure POFMS and Primavera capture the full cost of USAP
operations, the costs in these accounting systems should be reconciled to the NSF
accounting system. Additionally, the costs recorded in POFMS and Primavera should be
reconciled to the costs recorded in RPSC’s accounting system. However, there is
currently no process to reconcile the POFMS and Primavera cost data with the cost data
recorded in the RPSC or NSF accounting systems. If monthly reconciliations are not
performed, errors in the cost information reported in POFMS, Primavera, or RPSC’s
accounting system could go undetected, raising questions as to the reliability and
integrity of the cost amounts reported in these systems and the management decisions
made based on the information.




4
 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


                                          10
Recommendation No. 1:

We recommend that the Director of the Division of Acquisition and Cooperative Support
ensure that RPSC:

   a.   Properly records subcontract costs as such in RPSC’s accounting system.
   b.   Reconciles the costs recorded in RPSC’s accounting system with the costs
        recorded in POFMS and Primavera.
   c.   Reconciles the cost data reported in NSF’s accounting system for USAP
        activities provided by other organizations with the cumulative costs recorded in
        POFMS and Primavera systems. The reconciliation should be coordinated
        between RPSC and OPP personnel.

This recommendation, coupled with the corrective actions to the RPSC corporate
accounting system recommended in the DCAA incurred cost audit should allow USAP
costs to be reported and reconciled correctly in the RPSC accounting system, POFMS,
Primavera, and NSF accounting system.

NSF’s Response:

Recommendation 1a – Agree with the recommendation, and we will incorporate it into
our negotiating plan for the upcoming resolution audit resolution discussions with RPSC.
We anticipate completing development of our negotiating plan not later than February 28,
2006.

Recommendation 1b – Agree with the recommendation. RPSC already reconciles costs
reported through Primavera for its efforts on the South Pole Station Modernization
project with those accumulated by its finance office. We will extend this practice to the
monthly reports provided through POFMS (and its subsequent replacement software
application), and other deliverables using the Primavera software as a medium to report
cost information. We will engage RPSC on this issue, outside any audit resolution
negotiations, and seek to wrap up discussions prior to February 28, 2006.

Recommendation 1c – Disagree with the recommendation. Cost data provided by NSF to
RPSC for those projects that the Foundation requires an integrated, resource loaded
schedule to be maintained is received directly by NSF from the participating United
States Antarctic Program agencies. RPSC is not a party to the agreements with the
various federal government agencies, nor do these expenses represent costs incurred
under Contract No. PRSS-0000373. In this context, reconciliation of cost data by RPSC
and NSF is not warranted.

Auditor’s Comments:

This OIG recommendation is not asking NSF to reconcile and verify costs incurred by
other federal agencies in support of USAP activities. Rather, the purpose of this
recommendation 1c is to ensure that the costs that NSF incurred and paid to other federal



                                           11
agencies are accurately entered and reported in the POFMS and Primavera Systems.
Accurately recording and reporting these other agency costs in POFMS and Primavera is
a responsibility of RPSC under Contract No. PRSS-0000373. Reconciling POFMS and
Primavera with NSF’s accounting system is necessary to ensure that RPSC accurately
and completely reflects the full costs of operating the USAP so that RPSC and NSF
managers can make operational and budgetary decisions based on accurate and complete
cost information. The NSF response correctly presents the nature of the costs but does
not address how NSF intends to ensure the accuracy of the costs entered in POFMS by
RPSC with the amounts NSF has recorded in its accounting system. Therefore, our
recommendation that a reconciliation of costs entered in POFMS and Primavera with
those recorded in the NSF accounting system remains unchanged.

Finding No. 2: RPSC Subcontract Management System Would Be Improved With
An Annual Risk Assessment of Subcontractor Billing Accuracy

The FAR Part 9, Section 104 requires that RPSC implement adequate subcontract
administration policies and procedures and teach employees how to successfully use
those policies and procedures for all subcontracts. Such a subcontract management
system should include the selection of subcontractors based on qualifications, analysis of
proposed prices, negotiation of prices, selection of appropriate subcontract type, and
administration of the subcontract after award. However, an embezzlement of NSF funds
by employees of one of RPSC’s subcontractors raised questions regarding the adequacy
of RPSC’s subcontract management and oversight. Specifically, in 2003, RPSC was
informed by Agencia Universales S.A. (AGUNSA), RPSC’s ship re-supply subcontractor
in Chile at a cost of xxxxxxxxxx annually, that two accounting employees had embezzled
funds from AGUNSA during performance of the RPSC subcontract. Accordingly, in
2004, we reviewed the RPSC subcontract management policies and procedures, invoices
submitted to RPSC by AGUNSA, and conducted discussions with RPSC employees to
determine whether the current voucher review procedures in place at RPSC had been
improved since the incident occurred at AGUNSA.

We found that RPSC performed steps to determine whether NSF funds had been involved
in the AGUNSA embezzlement. RPSC also had improved its subcontract monitoring
process and revised its policies and procedures for approval of subcontract vouchers.
However, RPSC should also annually perform and document a risk assessment of its
subcontractors to determine if additional oversight and monitoring efforts are required to
ensure the accuracy and propriety of subcontractor billings. The factors influencing a
risk assessment are the subcontractor’s history, financial condition, size of the
subcontract, and the ethical and regulatory environment governing commercial
companies. For example, based on AGUNSA’s history, sufficient justification exists for
greater oversight by RPSC of AGUNSA through performance of subcontractor voucher
audits. This option for independent review is also available to the NSF Contracting
Officer’s Technical Representative, acting independently of RPSC.




                                           12
Recommendation No. 2:

We recommend that the Director of the Division of Acquisition and Cooperative Support
ensure that RPSC:

   a. perform and document an assessment of the risk that RPSC subcontractors can
      accurately record and bill the costs of subcontract performance in accordance with
      the subcontract terms and conditions; and

   b. ensure that subcontract voucher audits be performed on AGUNSA vouchers to
      determine whether costs billed are allowable and to verify that the corrective
      actions undertaken by AGUNSA are in operation and effectively preventing
      future embezzlements.

NSF’s Response

Recommendation 2a – Agree with the recommendation insofar as it is applicable to cost-
reimbursement type subcontracts, and will incorporate it into our pending RPSC
Purchasing System Review report. This report is currently being drafted by DACS, and
will probably be issued to RPSC not later than January 15, 2006. RPSC will be given 30
days to develop a corrective action plan and submit it to NSF for consideration. DACS
anticipates that any discussions regarding implementation of RPSC’s corrective action
plan will be completed by March 31, 2006.

We disagree with the recommendation where it is intended to apply to fixed-price type
subcontracts. Payment under this subcontract type is made upon the successful
completion of work or supply of materials, at the agreed subcontract price, regardless of
the subcontractor’s cost experience. Accordingly, the amount due the subcontractor and
the cost billable to the prime contract is readily discernable from the subcontract
document.

Recommendation 2b – Agree with the recommendation insofar as recent events at
AGUNSA support some type of increased surveillance of vouchers submitted by the
subcontractor for payment. However, we reserve comment on the exact nature of the
enhanced oversight effort until OIG completes its ongoing AGUNSA audit, and we can
use the resulting report to engage RPSC on the details of a cost effective surveillance
plan.

Auditor’s Comments:

We agree that recommendation 2a applies to cost-reimbursement type subcontractors.
We believe that RPSC’s control over subcontract costs would be maximized if the risks
for both types of subcontracts are assessed. Finally, we agree with NSF’s 2b response
that discussions with RPSC regarding cost effective subcontract management systems
should be conducted after the AGUNSA audit report is issued to NSF.




                                           13
Exit Conference

An exit conference was held via telephone on September 1, 2005. Findings and
recommendations as well as other observations contained in this report were discussed.

Representing National Science Foundation:

       Bart Bridwell, NSF Contracting Officer

Representing National Science Foundation, Office of Inspector General:

       Kenneth Stagner, Auditor




                                            14
                                                                        Appendix A



           Additional Survey and Internal Control Conclusions


We determined that the internal controls for the PERSCON Personnel Tracking System
and the MAPCON Material and Maintenance Scheduling System are generally adequate
to reduce the risk of material misstatements to invoices and cost data submitted to NSF
for the USAP contract.


1. Personnel Control (PERSCON)

   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. We reviewed the PERSCON policies
   and procedures, several months of data entered in PERSCON, and reconciliations of
   PERSCON and RPSC’s SAP accounting system records. Our conclusion is that
   RPSC has generally adequate internal controls for PERSCON.


2. Maintenance and Planning Control (MAPCON)

   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


                                          15
                                                         Appendix A


xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                16
     Appendix B




17
                                                                                 Appendix B


Comments – OIG-05-2-010

Finding 1 – A factual correction in the first sentence of the first paragraph, OPP does not use
POFMS to record costs incurred by the U.S. Coast Guard supporting the United States Antarctic
Program.

Recommendation 1a – Agree with the recommendation, and we will incorporate it into our
negotiating plan for the upcoming resolution audit resolution discussions with RPSC. We
anticipate completing development of our negotiating plan not later than February 28, 2006.

Recommendation 1b – Agree with the recommendation. RPSC already reconciles costs reported
through Primavera for its efforts on the South Pole Station Modernization project with those
accumulated by its finance office. We will extend this practice to the monthly reports provided
through POFMS (and its subsequent replacement software application), and other deliverables
using the Primavera software as a medium to report cost information. We will engage RPSC on
this issue, outside any audit resolution negotiations, and seek to wrap up discussions prior to
February 28, 2006.

Recommendation 1c – Disagree with the recommendation. Cost data provided by NSF to RPSC
for those projects that the Foundation requires an integrated, resource loaded schedule to be
maintained is received directly by NSF from the participating United States Antarctic Program
agencies. RPSC is not a party to the agreements with the various federal government agencies,
nor do these expenses represent costs incurred under Contract No. PRSS-0000373. In this
context, reconciliation of cost data by RPSC and NSF is not warranted.

Recommendation 2a – Agree with the recommendation insofar as it is applicable to cost-
reimbursement type subcontracts, and will incorporate it into our pending RPSC Purchasing
System Review report. This report is currently being drafted by DCCA, and will probably be
issued to RPSC not later than January 15, 2006. RPSC will be given 30 days to develop a
corrective action plan and submit it to NSF for consideration. DCCA anticipates that any
discussions regarding implementation of RPSC’s corrective action plan will be completed by
March 31, 2006.

We disagree with the recommendation where it is intended to apply to fixed-price type
subcontracts. Payment under this subcontract type is made upon the successful completion of
work or supply of materials, at the agreed subcontract price, regardless of the subcontractor’s
cost experience. Accordingly, the amount due the subcontractor and the cost billable to the prime
contract is readily discernable from the subcontract document.

Recommendation 2b – Agree with the recommendation insofar as recent events at AGUNSA
support some type of increased surveillance of vouchers submitted by the subcontractor for
payment. However, we reserve comment on the exact nature of the enhanced oversight effort
until OIG completes its ongoing AGUNSA audit, and we can use the resulting report to engage
RPSC on the details of a cost effective surveillance plan.




                                               18
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

        Internet
        www.oig.nsf.gov

        Email Hotline
        oig@nsf.gov

        Telephone
        703-292-9158

        Toll-Free Anonymous Hotline
        1-800-428-2189

        Fax
        703-292-9158

        Mail
        Office of Inspector General
        National Science Foundation
        4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 19
